<html>
<title> - IDEA: FOCUSING ON IMPROVING RESULTS FOR CHILDREN WITH DISABILITIES HEARING BEFORE THE SUBCOMMITTEE ON EDUCATION REFORM OF THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION HEARING HELD IN WASHINGTON, DC, MARCH 13, 2003 Serial No. 108-9 Printed for the use of the Committee on Education and the Workforce 83-959 U.S. GOVERNMENT PRINTING OFFICE WASHINGTON : 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                    IDEA: FOCUSING ON IMPROVING RESULTS
                      FOR CHILDREN WITH DISABILITIES




                                  HEARING
                                BEFORE THE
                     SUBCOMMITTEE ON EDUCATION REFORM

                                  OF THE
                        COMMITTEE ON EDUCATION AND
                              THE WORKFORCE
                         HOUSE OF REPRESENTATIVES
                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
		
             HEARING HELD IN WASHINGTON, DC, MARCH 13, 2003

                            Serial No. 108-9

            Printed for the use of the Committee on Education
                             and the Workforce



83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                 COMMITTEE ON EDUCATION AND THE WORKFORCE
                      JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia			DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                  Paula Nowakowski, Chief of Staff
              John Lawrence, Minority Staff Director



                 SUBCOMMITTEE ON EDUCATION REFORM
              MICHAEL N. CASTLE, Delaware, Chairman

TOM OSBORNE, Nebraska, Vice Chairman	LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	SUSAN A. DAVIS, California
FRED UPTON, Michigan			DANNY K. DAVIS, Illinois
VERNON J. EHLERS, Michigan		ED CASE, Hawaii
JIM DeMINT, South Carolina		RAU?L GRIJALVA, Arizona
JUDY BIGGERT, Illinois			RON KIND, Wisconsin
TODD RUSSELL PLATTS, Pennsylvania	DENNIS J. KUCINICH, Ohio
RIC KELLER, Florida			CHRIS VAN HOLLEN, Maryland
JOE WILSON, South Carolina		DENISE L. MAJETTE, Georgia
MARILYN N. MUSGRAVE, Colorado		
							


                          TABLE OF CONTENTS

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. .................................2

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. .................3

STATEMENT OF DIANNE TALARICO, SUPERINTENDENT, CANTON CITY SCHOOL 
DISTRICT, CANTON, OHIO .....................................................7

STATEMENT OF HARRIET P. BROWN, DIRECTOR, ESE POLICY AND PROCEDURES, 
ORLANDO, FLORIDA ..........................................................10

STATEMENT OF DOUGLAS CARNINE, DIRECTOR AND PROFESSOR, NATIONAL 
CENTER TO IMPROVE THE TOOLS OF EDUCATORS, UNIVERSITY OF OREGON ............12

STATEMENT OF LARRY LORTON, SUPERINTENDENT, CAROLINE COUNTY SCHOOL 
DISTRICT, DENTON, MARYLAND ................................................14

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. 
CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. ........37

APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING MEMBER LYNN C. 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C. ..........................................................41

APPENDIX C - WRITTEN STATEMENT OF DIANNE TALARICO, SUPERINTENDENT, 
CANTON CITY SCHOOL DISTRICT, CANTON, OHIO. ................................45

APPENDIX D - WRITTEN STATEMENT OF HARRIET P. BROWN, DIRECTOR, ESE 
POLICY AND PROCEDURES, ORLANDO, FLORIDA. ..................................51

APPENDIX E - WRITTEN STATEMENT OF DOUGLAS CARNINE, DIRECTOR AND 
PROFESSOR, NATIONAL CENTER TO IMPROVE THE TOOLS OF EDUCATORS, 
UNIVERSITY OF OREGON. .....................................................57

APPENDIX F - WRITTEN STATEMENT OF LARRY LORTON, SUPERINTENDENT, 
CAROLINE COUNTY SCHOOL DISTRICT, DENTON, MARYLAND. ........................69

APPENDIX G - WRITTEN SET OF PROPOSALS AND POSITION STATEMENT 
PRODUCED BY THE IDEA FUNDING COALITION SUBMITTED FOR THE RECORD BY 
MR. LARRY LORTON, SUPERINTENDENT, CAROLINE COUNTY SCHOOL DISTRICT, 
DENTON, MARYLAND. .........................................................77

APPENDIX H - WRITTEN STATEMENT BY ZERO TO THREE POLICY CENTER 
SUBMITTED FOR THE RECORD BY RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. ................87

APPENDIX I - LETTERS OF CORRESPONDENCE SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE ED CASE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C. ........................................99

APPENDIX J - WRITTEN STATEMENT FROM MR. MICHAEL RESNICK, ASOCIATE 
EXECUTIVE DIRECTOR, NATIONAL SCHOOL BOARDS ASSOCIATION, 
ALEXANDRIA, VA. .........................................................117

Table of Indexes ........................................................121



                    HEARING ON IDEA:  FOCUSING ON IMPROVING

                     RESULTS FOR CHILDREN WITH DISABILITIES
                   __________________________________________

                           THURSDAY, MARCH 13, 2003

                        U.S. HOUSE OF REPRESENTATIVES,

                       SUBCOMMITTEE ON EDUCATION REFORM,

                    COMMITTEE ON EDUCATION AND THE WORKFORCE,

                                 WASHINGTON, D.C.







	The subcommittee met, pursuant to notice, at 9:35 a.m., in Room 2175, Rayburn House 
Office Building, Hon. Michael Castle [chairman of the subcommittee] presiding.

	Present:  Representatives Castle, Osborne, Biggert, Platts, Keller, Wilson, Musgrave, 
Woolsey, Davis of California, Davis of Illinois, Case, Grijalva, Kind, Kucinich, Van Hollen, and 
Majette.

	Also present:  Representative Regula.

	Staff present:  Julian Baer, Legislative Assistant; David Cleary, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Kate Gorton, Professional Staff Member; Melanie 
Looney, Professional Staff Member; Alexa Marrero, Press Secretary; Krisann Pearce, Deputy 
Director of Education and Human Resources Policy; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Liz Wheel, Legislative Assistant; Alex Nock, Minority Legislative 
Associate, Education; Joe Novotny, Minority Clerk/Staff Assistant, Education; and Linda Theil, 
Minority Legislative Associate, Education.

Chairman Castle. A quorum being present, the Subcommittee on Education Reform of the 
Committee on Education and the Workforce will come to order.

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C.

	We are meeting today to hear testimony on IDEA, Focusing on Improving Results for 
Children with Disabilities. Under committee rule 12(b), opening statements are limited to the 
chairman and the ranking minority member of the subcommittee.  Therefore, if other members 
have statements, they may be included in the hearing record.

	With that, I ask unanimous consent for the hearing record to remain open 14 days to allow 
members' statements and other extraneous material referenced during the hearing to be submitted in 
the official hearing record.  Without objection, so ordered.

	Let me say good morning to everybody who is gathered here today, particularly to our 
witnesses.  We appreciate you being here today.  I am pleased to welcome all of you and the 
members who are here to this morning's Education Reform Subcommittee hearing.  We are looking 
forward to your comments and the recommendations that you will provide on improving the 
Individuals with Disabilities Education Act, also known interchangeably as IDEA.

	This landmark legislation has played a vital role in ensuring that children with special needs 
receive the high quality education they deserve.  For much of our nation's history, children with 
disabilities were denied access to public education.  However, with the passage of the Individuals 
with Disabilities Education Act in 1975, the doors of educational opportunity were opened.  
Schools now provide students with disabilities a free and appropriate public education in the least 
restrictive environment.

	According to the Department of Education, about six million students currently participate 
in these programs across the nation.  Today more than ever, students with disabilities have an 
opportunity to accomplish their goals.

	Although IDEA has many success stories, there is still room for improvement in serving 
children with disabilities.  Children with disabilities are still among those at greatest risk of being 
left behind.  No longer is it simply enough to provide our children with disabilities access to public 
schools.  Now more than ever, we must see that children with disabilities are given access to an 
education that maximizes their unique abilities and provides them with the tools for later success.  
We must be vigilant in our efforts towards improving their quality of education by focusing on 
better education results, reducing the paperwork burden for special education teachers, and 
addressing the problems of over-identification of minority students as disabled.

	One of the great benefits of No Child Left Behind is that we have raised expectations, and 
will hold school districts accountable for the annual progress of all their students, including 
students with disabilities.  Although we have made great progress in including students with 
disabilities in the regular classroom, we now must make equally great progress in ensuring that 
they receive a quality education in the regular classroom.

	The excessive amount of paperwork currently inherent in special education continues to 
overwhelm and burden teachers, robbing them of time to educate their students. This must be 
reduced in order to retain and recruit highly-qualified special education teachers.  Teachers must 
have the ability to spend more time in the classroom rather than spending countless hours filling 
out forms that do not lead to a better education for students. We remain committed to implementing 
common sense reforms that would reduce this burden and provide relief to educators.

	Minorities are often significantly over-represented in special education programs.  African-
Americans are nearly three times more likely to be labeled as mentally retarded, and almost twice 
as likely to be labeled emotionally disturbed.

	Current methods of identifying children with disabilities lack validity or reliability.  As a 
result, thousands of children are misidentified every year, while many others are not identified 
early enough or at all.

	We remain committed to build upon reforms already implemented, and must keep these 
challenges in mind as we reauthorize IDEA.  Your testimony - the witness's, that is - is vital to that 
task, and we look forward to hearing from each of you today.

	With that, I yield to my colleague from California, Ms. Woolsey, for whatever opening 
statement she wishes to make.

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. - APPENDIX A

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C. 

Ms. Woolsey. Thank you Mr. Chairman, and good morning.  I am very happy that we're starting 
with the work of reauthorizing IDEA.  Whenever I talk to educators or school administrators in my 
district, Marin and Sonoma Counties, just north of the Golden Gate Bridge, the first thing they 
bring up is IDEA.  And the first thing they say about IDEA is that the funding is not enough.

	For instance, if the federal government fully funded its share of IDEA, schools in Sonoma 
County would have received almost $20 million to help them educate students with disabilities.  
Instead, Sonoma County schools received just under $6 million, or about 15 percent of their costs.  
Almost every school district in the country could tell a similar story.

	In 2003, the average cost of educating a child with a disability is expected to be $7,402 per 
child.  If the federal government would contribute the 40 percent of the average-per-pupil 
expenditure that was authorized in the original IDEA Act, schools should receive $19-1/2 billion 
dollars in federal funds to help them pay for the cost of educating the more than 600,000 students 
they will serve under IDEA this year.

	As we all know, however, schools will receive far less.  This year, schools are receiving 
$8.9 billion dollars from the federal government, or about 18 percent of the average-per-pupil 
expenditure.  Congress cannot let this continue.

	Special education costs for local school districts are rising significantly faster than federal 
spending for IDEA.  If Congress had fully funded IDEA when we first passed the act in 1975, our 
state and local school districts would have had over three billion additional dollars to spend on 
other education needs.

	Just think what schools could do with their share of $3 billion dollars.  Teachers' salaries 
could be increased. Class size could be reduced.  Schools could have been built or renovated, 
computer systems purchased.  Even though federal funding for IDEA has been increasing, it is still 
more than $10 billion dollars short of full funding this year.

	If Congress continues to increase funds for IDEA at this rate, it will be the year 2035 before 
the federal share of IDEA is fully funded.  Our school children, both those with disabilities and 
those without, cannot wait 32 years to be fully funded.

	I am very interested in what you have to say today. This is the beginning of a conversation 
before we mark up a bill that is very, very important to our children and our schools.  Thank you.  
Thank you, Mr. Chairman.

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE 
ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. - APPENDIX B

Chairman Castle. Thank you, Ms. Woolsey.  We have a very distinguished panel of witnesses 
before us, and I do thank you for coming today. We have some individual members here who 
would like to introduce some of the witnesses.  I would first like to welcome the distinguished 
gentleman from Ohio, Mr. Regula, to the subcommittee today. Mr. Regula has a constituent who is 
on the witness panel, and we want to extend to him the courtesy of introducing that witness.

	Mr. Regula is important for other reasons as well. We authorize in this committee, and there 
is an Appropriations Committee, and the appropriations for education is handled by Mr. Regula's 
subcommittee.  So everybody here be very good to Mr. Regula.  Mr. Ralph Regula.

Mr. Regula. Thank you, Mr. Chairman.  Go easy on the authorization.  We are kind of short on 
money over there. I want to congratulate you for having the hearing.  I think it is so important that 
you say what is working.  Is this program achieving results, or are there ways in which some 
students, by virtue of better literacy, would not be necessarily part of the program?

	I think it is great that you are evaluating this to determine not only funding levels, but the 
ways in which this is operated that will better serve those children that need the help.  I am pleased 
to introduce as one of your witnesses in the panel, Dianne Talarico, who is the superintendent of 
the Canton City School System in the 16th District.

	Canton City is probably a microcosm of cities in America.  They have dropout problems.  
They have problems of reading challenges.  They have problems involving the community.  And 
Superintendent Talarico has done a great job in her tenure.  She came back to her hometown 
because she wanted to make the school system a better servant of the people.  As a result, she has 
put a lot of emphasis on literacy. I think that is a component that you need to address in the IDEA 
program.  She has put a great emphasis on pulling the community in through the community 
college. It is not a community college.  It is a school with vocational, technical programs and the 
colleges to inspire these students to other goals that they can achieve.

	She has given the system a lot of leadership in her brief tenure as superintendent, and has 
tried to maximize the community's resources, which is an important challenge for a leader in the 
school program. Superintendant Talarico has implemented partnerships involving the home, the 
community, and the higher education programs, which work towards a common goal. These 
partnerships have enhanced the opportunities of students in our community to make the community 
more attractive.  Because people do tend to live and buy a home and settle in a community that has 
a good school system, I think it is a key component in keeping your community vital, and attractive 
to new businesses, and so on.

	Superintendent Talarico understands those components as being more than just books and 
buildings.  It is a matter of involving the teaching staff, the community all together as partners, and 
making this work.  I am pleased that she can be here to testify.  I think her testimony speaks more 
eloquently than any words I can use as an introduction.

	Again, Mr. Chairman, I think it is terrific that you are taking this approach to saying that 
more money is not the only solution. There are also better ways in which the programs can be 
managed in terms of serving those who have a need.

	I am sorry I cannot stay, but we are having an education hearing over in our subcommittee.  
Thank you for doing this, and thank you for having Superintendent Talarico as a witness.

Chairman Castle. Thank you, Mr. Regula.  I do not want to suggest that we are ignoring money 
altogether either. But you have been very generous, sir.  You have done a good job of helping 
education on that committee.  We appreciate that.

	We thank you for being here, Ms. Talarico.  We are now going to turn for the next 
introduction to Mr. Keller, who is a member of the committee, and is one who has shown a great 
deal of interest in IDEA and the surrounding issues of concern to all of us.  So we appreciate Rick's 
good work on that.  Mr. Keller?

Mr. Keller. Well, thank you, Mr. Chairman.  Today I am pleased to introduce a constituent of 
mine, Ms. Harriet Brown, to the committee.  Ms. Brown is the director of Policy and Procedures 
for Students with Disabilities in the Orange County Public Schools.  The Orange County Public 
Schools is located in Orlando, Florida.  It is one of the top 16 largest school districts in the United 
States.

	I first came to know Ms. Brown after I solicited letters from my four local school districts 
for their suggestions for IDEA authorization.  More specifically, I wanted their suggestions for 
reducing the paperwork burden for special education administrators, teachers, and parents.  And I 
became interested in that issue after teaching for a day at a local high school and elementary 
school.  I learned that these teachers were spending up to two hours a day doing paperwork.

	Ms. Brown responded with a very eloquent letter highlighting her suggestions from her 
years of practical experience in the special education field.  That letter has been forwarded to the 
committee staff, and here we are today.

	I was very impressed with her advice and recommendations, as was the Education 
Committee staff, and I could tell right away that this was a lady who had a lot of experience in the 
field.

	As I mentioned, she is the director of Policy and Procedures for Students with Disabilities.  
She has an impressive background with a Bachelor's degree in speech and pathology and audiology 
from Hampton University and a Master's in speech pathology from Case Western University.  She 
also has her Doctorate of Jurisprudence, or law degree, from Tulane University, and has been a 
member of the Florida Bar for the past 13 years.  She worked as a supervising attorney for the 
Advocacy Center for Persons with Disabilities.  She has presented a lot of workshops and seminars 
throughout the State of Florida for parents and professional groups on special education, cultural 
diversity, and legal issues.  Ms. Brown is very involved in the community, and works untiringly in 
the disability rights arena.

	I am honored to have Ms. Brown here with us today to learn firsthand from her years of 
experience in the special education field.  Welcome, Ms. Brown.

Chairman Castle. Thank you, Mr. Keller, and welcome, Ms. Brown, to you.  I will introduce the 
next two witnesses.  It will not be as flowery.  I apologize for that.

	First, we have Dr. Douglas Carnine, who is the director of the National Center to Improve 
the Tools of Educators at the University of Oregon.  He also currently serves as a member of the 
National Institute for Literacy Advisory Board and the National Educational Research Policy and 
Priorities Board for the Institution of Education Sciences at the United States Department of 
Education.  In addition, Dr. Carnine is the author of various journal articles and college textbooks 
that have shaped the way which students are instructed.  We welcome you here, Dr. Carnine.

	Dr. Larry Lorton is our clean-up witness today.  He has served as the superintendent of the 
Caroline County School District in Denton, Maryland - so he probably came the least distance here 
- since 1999, and previously as the director of support services for the district.  In addition, he has 
worked as a professor at Anne Arundel Community College, St. Mary's College, the University of 
Akron, and the University of Maryland at College Park.  We welcome you, too, Dr. Lorton, to the 
panel.

	Basically, now, we will start with the witnesses. You will each have five minutes in which 
to summarize the written statements you have made.  The written statements, by the way, are part 
of the record, and everybody will have them.  Then when we are through with that, we will have 
questioning by the members of the panel.  Obviously, the lights will tell you what your timing 
status is.  I think it is four minutes of green, one of yellow, and when the red goes on, you should 
think about trying to wrap it up.  We will go from there.
STATEMENT OF DIANNE TALARICO, SUPERINTENDENT, CANTON 
CITY SCHOOL DISTRICT, CANTON, OHIO

Ms. Talarico. Good morning, Chairman Castle, Ranking Member Woolsey, and members of the 
Subcommittee on Education Reform.  I am honored to have the opportunity to testify before you 
today.  As superintendent of the Canton City School District in Canton, Ohio, and as a former 
special education teacher, principal, and associate superintendent in the San Francisco Unified 
School District, I have firsthand experiences implementing the Individuals with Disabilities 
Education Act, and I am keenly aware of the outcomes it produces for students with disabilities.

	I am also a member of the Ohio 8 Coalition, a strategic alliance of superintendents and 
teacher union presidents from the eight largest cities in Ohio.  Bill Seigferth, the president of the 
Akron Education Association, is here with me today.

	In my view, all children belong to all of us.  Prior to becoming special education students, 
they were general education students first.  Students in special education are simply general 
education students receiving specialized support.  I want to commend the members of this 
subcommittee, the full committee, and others in the Congress who sent this message loud and clear 
in the No Child Left Behind Act.  That law has the potential to have an enormous positive impact 
on the education of students with disabilities, because it includes all students with disabilities and 
the expectation that they meet high standards, and they are a part of every aspect of the 
accountability systems we develop.

	I believe the success of the No Child Left Behind Act and the reauthorization of IDEA are 
intricately woven together.  The reauthorization of IDEA offers a tremendous opportunity to further 
flesh out these high expectations for students with disabilities.  What we really want is to prepare 
all students to graduate from high school and have the skill sets to have choices and options 
available to them to either go on to post-secondary education or post-school employment.

	There are three key recommendations regarding the reauthorization of IDEA that I would 
like to make today.  First, provide state and local school systems with the opportunity to expand 
and intensify preventive pre-referral intervention services for students who are floundering.  Too 
often, students are referred to special education because they are not succeeding in the general 
education setting, and they do need extra support or intensified instruction.  While they do not need 
special education, they are often referred there anyway.

	Special education, you see, has become a place where students who learn differently can be 
sent.  I mean no disrespect to my general education colleagues, for they have not received the 
training to meet the diverse range of student learning needs.

	Students who experience difficulty learning how to read or have behavioral challenges need 
immediate intensive support services and intervention.  What we do need is the flexibility to design 
and deliver those services in a manner that does not require extensive eligibility determination and 
assessment.  Every school and every teacher knows pretty quickly when students are not 
succeeding.

	We can and will reduce the number of students we refer to special education by permitting 
the use of funds to provide pre-referral services, permitting the initiation of services without having 
to work through the current maze of IDEA procedures and without having to identify a student as 
disabled, creating training requirements to educate staff on strategies to reduce disproportionate 
representation of culturally and linguistically diverse learners, focusing early intervention services 
on reading and writing problems within the general education environment.

	IDEA could allow us to use a portion of the funding we receive in a flexible manner to 
serve students before they are formally referred to special education.  We have already begun this 
type of pre-referral intervention program in Canton.  We respond quickly to students who are 
having learning and behavior problems in order to meet their needs and reduce the number of 
students we serve in special education.

	Second, I recommend that all high-risk children be provided with high-quality early 
childhood interventions. Recent research shows that a lack of kindergarten readiness is the single 
most significant reason for the achievement gap between children of poverty and their high 
socioeconomic counterparts.  We need to ensure that the early intervention programs under IDEA 
Part C reach as many children as possible.

	Expanded early intervention services will help us turn around the situation we are faced 
with now in many urban centers, where special education has become a place to segregate students 
who learn differently.  Not all students learn the same way and at the same pace, but this does not 
mean they are disabled.

	Too often, special education is a place where children of poverty and children of color with 
lesser opportunities for school readiness than their higher socioeconomic counterparts can be 
isolated.  Students in urban settings, where we have high proportions of students of color and 
poverty, are too frequently the children that we have failed to teach or failed to teach well.

	My third recommendation is to dramatically enhance and expand personnel preparation and 
personnel development for educators. I cannot overemphasize this point.  Good intentions and good 
policy are not enough.  The achievement and success that we produce for students is a direct 
correlate to the skill of the educators who serve them every day.

	Every challenge we face in implementing IDEA, whether it be behavior management, 
effective reading instruction, over-identification of minority students, or excessive paperwork, is 
related to a lack of highly skilled personnel.  The shortage of fully qualified special education 
teachers is the worst shortage in the country, and it is only growing.  We cannot continue to place 
unqualified people in classrooms to teach special education students and expect to achieve the 
expectations we have set in No Child Left Behind.

	IDEA should expand professional development support for school districts and universities 
to train general education teachers and administrators with new skill sets to address the needs of 
diverse learners.  They need both pre-service and ongoing professional development.

	I recommend that you consider authorizing a national advisory panel to study programs that 
train educators in general, special, and gifted education, both pre-service and professional 
development.  We need recommendations about how to ensure that all educators have the skill sets 
they need to be successful in educating students with disabilities.

	Teachers must know how to deliver culturally responsive instruction.  They must know how 
to adapt and modify the core curriculum within the realm of the adapted curricular standards.  They 
also must be effective data collectors and assessors so they can monitor both short- and long-term 
progress.

	In closing, I want to make sure I offer my support to the recommendations the committee 
has received from the Council of Great City Schools regarding streamlining the IEP process and 
reducing the paperwork demands on teachers and schools.  In addition, though, you must assume 
from my statement that relinquishing responsibility to educate any student, regardless of the 
challenges they pose to a district, is something I could not support.

	The area of discipline for students in special education, particularly those with emotional 
and behavioral disabilities, is a daily challenge for many school administrators and teachers.  We 
need more and better alternatives to the traditional schoolhouse for some children. In other words, 
we need to do a better job finding effective ways to accommodate and to teach students who offer 
us the greatest challenges.  We cannot simply turn them away.

Mr. Chairman and members of the committee, I would like to thank you for your leadership 
and insuring that students with disabilities are general education students first.  I would be pleased 
to answer any questions you have.

STATEMENT OF DIANNE TALARICO, SUPERINTENDENT, CANTON CITY SCHOOL 
DISTRICT, CANTON, OHIO - APPENDIX C

Chairman Castle. Thank you, Ms. Talarico.

Ms. Brown.

STATEMENT OF HARRIET P. BROWN, DIRECTOR, ESE POLICY AND 
PROCEDURES, ORLANDO, FLORIDA

Ms. Brown. Good morning, Mr. Chairman.  I thank you for the opportunity to present to the 
committee, to the chairman, and to Representative Keller.  I am pleased that you already have my 
information.  You can tell that this is a very passionate subject.  We could talk about this all day 
long, but I will try my best to keep my remarks to the time limit.

	I have several suggestions that I think will help school districts, parents, advocates, and 
attorneys in this arena.  IDEA is very passionate in its outline and in its guidelines, but there are 
some things that we need to work on. I think I can sum up a few of these.

	We need to mandate a model state IEP form.  There have been many issues on IEP 
development and the length of an IEP.  That document alone can take as long as six hours to 
produce if, in fact, you take each single element and each part.  The issue about mandating a state 
IEP would mean that each state, based on that state's standards, could work on the document.  That 
would also help the Department of Education, which is responsible for monitoring.  Right now, 
school districts are faced with monitoring visits, and we never seem to get anything right.  If the 
state department were the one that started that monitoring and gave us the document, compliance 
would be much better.  It would eliminate paperwork.

	The other part for a state IEP is that we have a lot of mobility, and parents in one state 
would know what they are facing.  Just because they move from one county to the other, they 
should not be forced to learn a brand new system.  That model document would also help, because 
it would align with the No Child Left Behind requirements.  States are required to have standards.  
Those standards would also be used for students with disabilities.  Because what we have to think 
about is the student as a regular education student first.

	Secondly, we need to eliminate the short-term objectives.  This one entity really dictates the 
length of an IEP. I do understand parents like it, because it's the easiest part of the IEP to 
understand.  I will learn my alphabets.  I will learn "A,'' I will learn ``B,'' I will learn ``C.'' That 
document, because you have to list all of that, makes some IEPs 20 to 25 pages long.  If we use 
state standards, you would not need to do that, because the IEP then, in fact, is not a lesson plan, 
but it is a guideline for the education for the student.

	We need to change some of those IEP development and content requirements.  I ask you to 
really look very carefully at that.  The IEP as it currently is now is a document for the whole 
community.  We have to list on their things that will help the student, as well as the teacher, the 
parent, anybody working with the student.  States should be required to use their personnel 
development funds and make sure that we have training.  But the IEP should be a document just for 
the student.  When we have a number of people involved in the development of that document, it 
makes it much better.

	We need to also look at the IEP team composition.  I applaud the efforts in '97 to include 
the regular education teacher.  But what we have now, in effect, is regular education students 
missing instructional time, as well as special education students.  Because when you have a 
meeting and the regular education teacher has to go to that, another classroom of students has lost a 
day.  Sometimes IEP meetings can be as long as six hours, depending on the people who are 
coming and the forthrightness, if you will, of the parent. That is absolutely too much.

	If we can have input from all of the parties, it would be much better.  Because each time we 
have to look at that document, we have to change the entire document.  So with a model form, I 
think it would really help us in all of those aspects.

	We also need to look at eliminating the triennial evaluations.  One benefit with IDEA '97 is 
the requirement for progress reporting.  When we have that requirement, every time a teacher in a 
three-month period does a progress report, you have done a mini reevaluation.  There is no way 
that you can list the progress of the student without also including what actually has happened.  
You have to look at the whole child.  So if there were no longer that requirement - that information 
actually does not just happen once every three years; it actually happens about every three months.  
With progress reporting, you have to give that information.

	We definitely need to eliminate the requirement for procedural safeguards for parents every 
time we have a meeting.  Our parents tell us that they can wallpaper their houses with all of the 
procedural safeguards.  There are critical times that they need a reminder, and I think we should 
still give that to them.

	We also would like to ask for a statute of limitations on claims for IDEA.  Compensatory 
education challenges are the hardest for school districts.  We are faced with a student who may be 
in high school and a claim that comes from something when he was in kindergarten.  We really 
need to look at giving us that.

The last point is a cooling-off period before we have to file an IDEA due process request.  
If school districts could be allowed an opportunity to really review that to see how we can help 
rectify the situation, I think it would help all of us including parents, advocates, and school 
districts.

	We need to get back to the spirit of IDEA, and that is to help all students learn.  No Child 
Left Behind helps us do that.  If we work together to implement both of those statutes, we can 
improve standards for all students.  Thank you.

STATEMENT OF HARRIET P. BROWN, DIRECTOR, ESE POLICY AND PROCEDURES, 
ORLANDO, FLORIDA - APPENDIX D

Chairman Castle. Thank you very much, Ms. Brown. We appreciate that.

Dr. Carnine.

STATEMENT OF DOUGLAS CARNINE, DIRECTOR AND PROFESSOR, 
NATIONAL CENTER TO IMPROVE THE TOOLS OF EDUCATORS, 
UNIVERSITY OF OREGON

Mr. Carnine. Chairman Castle and Ms. Woolsey, I would like to thank you for the opportunity to 
discuss appropriate methods of identifying children with specific learning disabilities in the context 
of the reauthorization of IDEA.

	Let me start by saying that learning disabilities are real, and we know that they do exist.  
Yet unlike many other disabilities, learning disabilities are difficult to diagnose.

	A learning disability, as defined in statute, is a disorder in one or more of the basic 
psychological processes involved in understanding or in using spoken or written language, a 
disorder that may manifest itself in listening, thinking, speaking, reading, writing, spelling, or 
doing mathematical calculations.

	Under the current regulations, the discrepancy formula is the basis for determining when a 
child will be eligible for special education services for a learning disability.  The formula makes 
eligibility for services dependent on a discrepancy between an IQ in the normal range and an 
achievement level that is generally two or more years below grade level.

	Unlike diagnostic practices in medicine, the scientific basis for IQ-discrepancy formula is 
weak. Discrepancy does not predict intervention outcomes, it is not related to genetic factors in 
learning disabilities, and it is not associated with unique profile and brain imaging studies.

	But the major problem with the discrepancy formula is that it is a wait-to-fail model.  For 
example, most students have to reach third grade before an achievement test can show performance 
two years below grade level.

	Take reading, for example, which is an area of concern for as many as 80 percent of the 
students with a learning disability.  We can predict as early as January of the kindergarten year 
which children will have difficulty learning to read.  This is a risk factor for having a learning 
disability.

	There are numerous studies that have shown that scientifically based methods for teaching 
reading can reduce or even prevent this failure.  But with the IQ-achievement discrepancy formula, 
this kindergarten child will most likely have to wait until the end of third grade before being 
eligible for special education services.  Even with remediation, children who have languished in 
failure for two years have little chance of success in later grades.

	Most researchers, parents, and some advocates agree about getting rid of the IQ-discrepancy 
formula.  The most promising alternative is the response to intervention model. The model would 
include five major steps.

	First, target children who seem to exhibit a significant difference between actual and 
expected rate of learning.

	Second, develop a plan to provide research-based intervention in the area the child needs to 
strengthen.  Ensure that a qualified teacher teaches the child, that the teacher receives adequate 
training, that the teacher has access to the instructional materials called for, and that the teacher has 
the time to implement the intervention.

	Third, monitor to document progress, or lack thereof, and regularly report to parents.  One 
Internet-based system provides this type of monitoring for almost 450,000 children across the U.S. 
at only a cost of a dollar a day per child.

	Fourth, in cases where the child is not progressing at a desired rate, determine if the 
intervention is being implemented with fidelity.  And if it is not, provide additional assistance to 
the teacher.

	Fifth, require that a lack of progress over a limited period of time leads to a child-centered 
evaluation conducted by a team described in 5(b) of the existing law. This process will likely lead 
to identification of a specific learning disability and to provision of special education services.

Dramatic improvements and outcomes for students with learning disabilities require more 
than doing away with the IQ-discrepancy formula.  Schools must provide teacher training and 
support, and systematically monitor student progress and implement scientifically based 
interventions before, during, and after eligibility.  With such a system, the failure rate in reading 
can be reduced to about two percent.

	Such dramatic changes have been documented through brain images.  And I do not know 
whether the visuals-yes, thank you.  If you look at the images in the left hemisphere of the brain 
before scientifically based instruction, there is little activity during reading.  After 65 hours of 
intensive scientifically based intervention, there is substantial activity in the left hemisphere 
resembling that of successful readers.

	So we have research findings that go beyond educational testing to actually look at imaging 
of the brain to show what changes can be brought about by early intensive scientific instruction.

	The success of the response to intervention model that it can provide is indispensable in 
solving the problem of over-identification of minority children for special education.  Both learning 
disabilities and behavioral disorders can be identified at an early age, and through early 
intervention, the severity of the disability can be ameliorated.

	The response to the intervention model avoids the problem of the misuse and inappropriate 
use of IQ tests in placing minority students in special education.  Response to intervention can be 
as powerful in helping children with behavioral disorders as it can be in helping children with 
learning disabilities.

	Most of the learning disability community agrees that the IQ-achievement discrepancy 
formula needs to go.  It is ineffective, inefficient, irrational, immoral, and indefensible.  The 
opportunity to put millions of students on a better trajectory toward academic success is before you 
now.  Now is the time.

	As was noted in earlier testimony today, the passage of No Child Left Behind for the first 
time in U.S. history places children with disabilities in the accountability system with all children.  
This is a huge step forward for children with disabilities, because now schools see that their 
achievement counts.  This is the time to motivate schools to adopt the use of scientifically based 
procedures and monitoring of student progress to improve the outcomes for students with 
disabilities.

	One final comment.  My wife is a retired special education teacher.  She called me last 
night, and she said, ``This testimony you're giving today is maybe the most important thing you've 
ever done.''  Her heart was broken as a special ed director seeing children not being able to receive 
services they need, because she knew they could successfully learn to read in many cases.  Thank 
you.

STATEMENT OF DOUGLAS CARNINE, DIRECTOR AND PROFESSOR, NATIONAL 
CENTER TO IMPROVE THE TOOLS OF EDUCATORS, UNIVERSITY OF OREGON - 
APPENDIX E

Chairman Castle. Thank you, Dr. Carnine.

Dr. Lorton.
STATEMENT OF LARRY LORTON, SUPERINTENDENT, CAROLINE 
COUNTY SCHOOL DISTRICT, DENTON, MARYLAND

Mr. Lorton. Thank you very much, Mr. Chairman and committee.  I want to say at the outset that I 
second wholeheartedly the testimony that you have already heard.  The only other point that I want 
to make is that I also second Representative Woolsey's opening comments about the importance not 
only of funding IDEA, but preferably, funding it under mandatory provisions.

	I am not an expert by any means in special education.  I have dealt with special education, 
obviously, for almost 35 years of my career, 25 as a superintendent. What I want to do this morning 
is really quite simple, and that is to try to put a face on special education in a school system.

	Caroline County is one of 23 counties. The counties and the City of Baltimore make up the 
24 school systems in Maryland. Maryland is organized a little bit differently than many states.  
Boards of education, unlike many states, are not fiscally independent.  Boards of education in 
Maryland have no taxing authority.  They have no opportunity to raise money locally.  They 
depend entirely on the largesse of the state government and local county government.  That is one 
of the reasons why IDEA is so crucial where special education is concerned, especially to us.

	In that context, Caroline County, which is one of the smaller counties in Maryland, with 
30,000 people and about 5400 students, is also one of the poorest counties in the state.  Out of the 
24 subdivisions, it is twenty-third in its taxable wealth per pupil, which is generally considered to 
be the single best measure of a subdivision's ability to generate revenues.  It is dead last in spending 
per pupil.  It is dead last in the amount and the percentage of revenues that we receive from our 
county government.

	For example, if we received or if we spent the same amount of money in our county that 
Montgomery County does, it would mean almost 15 million additional dollars to our budget. If we 
spend the same amount of money per pupil that Howard County spends, it would mean almost $9 
million to our budget - or $6 million to our budget.  If we spent as much money per pupil in our 
county as does our next-door neighbor county, it would mean over $8 million to our budget.  So in 
context, there are half the school systems in America below the mean that desperately need 
attention to IDEA.

	Caroline County, in addition to that, has a 42 percent rate of reduced and free lunches.  It 
has a 12 percent poverty rate.  It has a 30 percent adult illiteracy rate.  In a nutshell, it is a working 
poor place.

	Despite all of that, and despite what the academic predictions would suggest, Caroline 
County has done exceptionally well in one of America's toughest accountability assessment 
programs in the nation.  Over the eight years of the so-called Maryland School Performance 
Program, Caroline County has the third highest rate of gain in the state.  In the last administration 
in 2002, Caroline County was exceeded by only two counties in the state in overall performance.  
We were third in performance.

	The reason I tell you this is because, as has been mentioned or suggested, in Maryland's 
accountability assessment, every child is part of the assessment program, including, with few 
exceptions, every special education child. My purpose for going down this road is simply to point 
out that despite our wealth, despite the dollars that we spend per child, Caroline County, among 
others, is a very high-achieving school system, and we do deliver and maximize every dollar that 
we have.

	Caroline County, as has been suggested by other testimony, believes very, very deeply in 
the importance of prevention.  Caroline County has had for almost 25 years a full-time kindergarten 
for every child, fully supported locally without full state support.  In addition to that, we have taken 
other steps, such as class size reductions to the average of about 17 or 18 in primary grades, and 
some other things.

	If I can call your attention very briefly to page 4 of my written testimony, you can see the 
breakdown of where our special education children lie.  And as has been suggested, the specific 
learning disabilities make up about half of our children.

	I have two quick points.  One is in addition to the regular services that we provide 
internally, Caroline County has done two other significant things to maximize its dollars.  First, we 
have formed a coalition with four other counties to provide much needed but very difficult services, 
including audiology, speech and hearing therapy, and occupational and physical therapy.  We do it 
jointly with over a million-dollar budget to which we all contribute.  The reason for that is very 
simple.  If we did not do it together, we would not be able to do it alone.

	Secondly, we have also joined with several other counties on a transportation program to 
deliver blind and deaf children to their institutions by delivering them on Sunday night, and then 
picking them up on Friday morning.

	Finally, I would like to just call your attention to the last two pages of my testimony.  On 
Attachment A, you will see a bar graph.  It speaks for itself. The black bars show the climb of our 
local special education budget, and the stacked lighter bars show the state and federal contributions 
and revenues to our budget.  The gap between the two is what we pick up locally.  Special 
education is what it is.  The services are not optional.  They have to be delivered.

	And finally, on Attachment B, there is a spreadsheet of our budget.  Again, I just want to 
make one point on it.  On the right-hand side, there are some who claim that the gap, the absence of 
money, and the services that we are not allowed to or cannot deliver because we do not have the 
resources, not only with IDEA, but also with No Child Left Behind, are vastly overrated.

	If you look on the right-hand side of this spread sheet, you will note on the bottom that we 
actually devote over $5 million of direct and indirect costs to our 714 special education students.  
And that does not include any indirect costs allocated to instructional salaries, textbooks, or other 
instructional costs.

	So we think we do a good job.  We can desperately use additional resources if we had them.  
We could do a better job.

STATEMENT OF LARRY LORTON, SUPERINTENDENT, CAROLINE COUNTY SCHOOL 
DISTRICT, DENTON, MARYLAND - APPENDIX F

	And in closing, I want to submit into the record a set of proposals and a position statement 
put together by the IDEA Funding Coalition [Submitted for the record.  See Appendix G], and I 
will leave it right here.

	Thank you very much, Mr. Chairman and committee.

Chairman Castle. Thank you, Dr. Lorton.  Let me thank all the witnesses.  Now is the time for the 
committee to ask questions.  The same basic rules apply.  We have five minutes to ask questions 
and get answers from all of you.  We are looking for relatively brief answers if we can, so we can 
ask multiple questions.  And we will go back and forth down the row here.

	And I will start by yielding myself five minutes.  Dr. Lorton, I just want to say one thing, 
not defensively, but just to make sure it is understood.  In the last six, maybe seven budgets now, 
the federal government's contribution to education has increased, on the average, 14.5 percent a 
year, which is obviously well above the cost of living.  Clearly, we are wrestling with the issue of 
how to get to the 40 percent level in terms of the funding of IDEA.   It has increased in the time I 
have been in Congress - 10 years - from 7 percent to 18 percent.  This is a significant increase.  So 
we understand those concerns.  But having said all that, and setting aside the dollars for the 
moment, I read on page 4 and 5 of your testimony about some of the special education services that 
you have.  I was struck by the fact that your IDEA children are tested along with everybody else.  
Is there anything else you think you are doing well in Caroline County besides the things that are 
listed to help with the students with disabilities?  Is there anything that is not in your testimony that 
you would like to highlight?

Mr. Lorton. Well, only in the context of previous testimony by Dr. Carnine, Caroline County has 
placed an increasing emphasis on preschool programming as part of the early diagnosis and early 
interventions for almost 26 years, with its full-time kindergarten and lower class sizes.  It would be 
safe to say that if we did not have that emphasis on the three- to five-year-olds, it is very likely that 
our special education population would be larger than it is.

	I agree totally with the need for early intervention.  A lot of children that end up in special 
education do not belong there, but the kids still need the help wherever it comes from.

Chairman Castle. And I want to ask other questions of other people.  But I would agree that all of 
you touched in some way or another on early intervention.  I happen to agree with it entirely.  And 
I think several of our programs are oriented in that direction.  However, anytime you have anything 
definite that we can do here at the federal level, we are always interested in what that could be.

	Let me turn to you, Ms. Talarico, for a minute.  You indicated in your final point that we 
should dramatically enhance and expand personnel preparation and personnel development for 
educators.  I agree with that.  There are some provisions in IDEA now that allow for personnel 
development, et cetera.  But how would you expand that?  Would you expand it at the colleges of 
education?  Would you expand it in what is being done at local and state levels, as well as what is 
in IDEA?  Is there something different we should do in IDEA to help with this area?

Ms. Talarico. Chairman Castle, I believe that it needs to happen at the pre-service for both general 
education teachers and administrators.  I do think that they are going to require new skill sets to 
address the needs of the diverse learners.

	I also believe that there has to be ongoing professional development throughout educators' 
careers, continuing to enhance and expand the repertoire of skills to respond to the children that we 
are serving.

Chairman Castle. Is it your experience that administrators are not familiar enough with the 
problems of IDEA or not?  I do not mean to put words in your mouth, but - 

Ms. Talarico. I think what is interesting in our country is that over the last 10 years, school 
leadership has gone from plant management to seeing them as the instructional leader.  So I think 
they have to have general knowledge about everything - about bilingual education, special 
education, general education, and gifted education.  However, they are the instructional leaders in 
that schoolhouse, and they set the tone.

	I believe that they need to be cognizant of special education laws and the practices, and I 
believe that they need to embrace all the children that they serve, and demonstrate that to the 
faculty in the schoolhouse and the community. It is really essential that school site leadership make 
everybody accountable for all the children, and we all have to take responsibility for all of the 
children.  It is not an ``us'' and a ``them.''

Chairman Castle. Just a quick comment on that. Having been in schools, the administrators have a 
lot to do besides just the academic part of it.  Sometimes it concerns me that we do not free it up 
enough.  Let me turn to Ms. Brown concerning the uniform IEP.  I think you talked about a 
uniform state IEP, and tied it in to the new standards, and eventually the sustenance we are going to 
have.

	I believe that interests all of us here.  We are all concerned about the work that goes into the 
IEPs, which relates to the paperwork and the other issues that we are talking about as well.

	I am not sure how this really works, because I do not do this on a regular basis.  However, 
is it your judgment that we have the federal guidelines for this, so we are going to try to issue more 
in terms of this legislation?  And then the state gets involved, and sometimes the local districts get 
involved.  But do you believe that there could be a state IEP that could be used without any add-ons 
at a local basis that could be shared, and perhaps something that could be understood from one state 
to another?  That is, the states may be slightly different, but Texas would understand what the IEPs 
of Oklahoma are, et cetera?

Ms. Talarico. I think if we can start with the state IEP, and then eventually, it may work to a 
federal one, it is going to also relate to school administrators.  We need a document that everybody 
can understand.

	So within a state, every district does an IEP.  Every time a parent moves, or even if you get 
one into your district, you have to start the process over.  It will help with the state, because with 
NCLB, you have state standards.

	So the state department is working on those guidelines, and they are also working on the 
IDEA guidelines. It will also help if there are any new add-ons, because then that entity will be the 
one to change it for everybody, instead of repeating the same things.  Then you find out later that 
you have not implemented what you needed to.

	But if we could start with a required state version, I think it would help the process.

Chairman Castle. I mean, I have got to tell you, that honestly makes a lot of sense to me.  My 
time is up, so I cannot really ask the others about it.  I would be interested in your thoughts about 
that.  I think it makes a lot of sense.  I think there is a great deal of personalizing these IEPs, and 
there is a lack of comprehension about what it all means.  Maybe I am wrong about that.

Ms. Talarico. No, you are not.  You are not at all.

Chairman Castle. Maybe the people here are greater experts, but we would like to know more 
about it.  Let me turn to Ms. Woolsey.

Ms. Woolsey. Thank you, Mr. Chairman.  Before my clock ticks, I would like to recognize Zero to 
Three, a research-based national organization that is committed to promoting the healthy 
development of our nation's infants and toddlers, and continuing to seek authorization for Part C of 
IDEA [Submitted for the record. See Appendix H].  I have to enter in the record some information 
from them, if you would so allow.

Chairman Castle. Without objection, it will be entered in the record.

Ms. Woolsey. And thank you.  And I would like to make a comment and compliment the members 
on this side of the aisle for being so interested in IDEA.  Look at this.  I am really proud of all of 
us.  Thank you.

Dr. Lorton, one of the things that is so important to me is that we get to 40 percent, you know, 
funding.  But I am so worried that when we get there, the money that we replace, that we take care 
of, will not end up still in elementary/secondary education programs as it should be.  And could 
you see how we're going to make sure that can happen?  I mean, that we do not give the money to 
the states, and then end up with the school districts still being short all the way around?

Mr. Lorton. I never thought I would sit in a situation like this and respond positively to the 
potential for additional federal regulations.

Mr. Lorton. Truly, I think - and I cannot speak for the other 14,500 superintendents that are in this 
nation. I have two points.  One is that most school systems, particularly those that are poor and 
have a more difficult time paying for services, would not have any difficulty in taking every dollar 
that an increased funding in IDEA may represent a replacement for and use it in the classroom.  
Most school systems devote well over 75 cents on every dollar they have either in the classroom or 
in the schoolhouse.

	I will tell you that I, and I believe most of my colleagues, do not shy away from 
accountability.  I mean, it is what it is.  We have no problems with accountability.  But I think the 
needs are so great.

	Our budget request in Caroline County this year and next year, for example, is almost $2.4 
million less than we are actually asking for.  We would have no problem spending those dollars.  
We would reduce class sizes, provide greater and better services in special education, and provide 
and deliver a much better quality of interventions and support for at-risk children in our middle 
schools.  Additionally, we would develop time during the school day for children who do not have 
support at home to do their work with professional guidance.  There is no end.  And honestly, I 
think most of us would operate in such a way that you would not have to worry about that.

Ms. Woolsey. Thank you very much.  What I want is the accountability on the state side.  I am not 
worried about the local superintendents.  Let's start down here with you, Ms. Talarico, and see if 
each of you would answer that question quickly.  Because he is going to not let me have all the 
time.

Ms. Talarico. I think we have to be somewhat cautious about leaving interpretation up for grabs 
among the 50 states.  I would like to agree with what has already been said and ask that regulations 
and stipulations be forthcoming from the federal government to the states.  Also, I believe school 
districts will do what they need to do with it and will be accountable for the expenditure of those 
funds.

Ms. Woolsey. Thank you.  Ms. Brown?

Ms. Brown. As a lawyer, you think I would love interpretations.  But there needs to be clear, 
defined guidelines.  Because again, interpretations are just that.  Each person can do what they 
want.  And we are looking to you to give us that information.

Ms. Woolsey. Thank you.  And we should not leave Dr. Carnine not-

Mr. Carnine. This is an area I really do not have a comment on.

Ms. Woolsey. Oh, all right.  Thank you very much.

Chairman Castle. Thank you very much, Ms. Woolsey. Mr. Osborne.

Mr. Osborne. Thank you, Mr. Chairman.  Thank you for being here this morning.  I would like to 
address this to Ms. Talarico and Dr. Carnine.  I noticed that both of you referred to over-
identification and misidentification.  I think the word ``dumping'' is used in at least one testimony 
there.

	I wondered if you would take a shot at estimating how many students you feel are either 
over-identified or misidentified in IDEA.  As Dr. Lorton pointed out, funding is a concern.  
Everyone would like to see us get the 40 percent.

	Of course, I think the way the law is written is up to 40 percent, and I do believe that you 
have had about a 250 percent increase in the last 10 or 11 years in your district.  Given the 
economic climate in Washington, as much as we would like to see it go to 40 percent, I think we 
will see an increase over time.  It may not jump up to much over 22 or 23 percent next year.

	So what we are really interested in is seeing if we can reform the system.  I noticed you had 
47 percent of the students in your district identified with some type of learning disability.  My 
concern is whether we are making some mistakes here.  Are we getting some children in IDEA that 
should not be there?

	If Ms. Talarico and Dr. Carnine would take a shot at the questions first of all and then 
express any other thoughts you have, I would appreciate it.

Ms. Talarico. I really think that the majority of children who are ending up in high incidence 
learning disabled classrooms have reading difficulties, and we must address that.  People who are 
teaching children at the pre-K, early childhood, and primary years need to be experts in reading 
instruction.

	I do not know if that means we need to have reading specialist certification for them.  But 
by and large, the children who are learning disabled have reading deficiencies.  That is a huge 
concern that I have.

	Also, I would like to say that I think that there are some inconsistencies applied when 
people are at the assessment stage of the special education process.  I am not certain how 
consistently our educational assessors and school psychologists are determining eligibility.  That is 
a whole piece that I am not an expert in, but I think needs to be looked at.

Mr. Carnine. In answering your question, it is important to understand that learning disabilities 
occur along a continuum, something like hypertension.  So it is not a yes-or-no malady.  What that 
means is that the environment can make it more severe or less severe, just like diet and exercise can 
make hypertension more severe or less severe.

I think if you did away with the IQ-discrepancy formula and allowed earlier intervention, 
over the next 10 years, you would reduce the severity of learning disabilities in probably hundreds 
of thousands of children.  Many of that number may not need to have an IEP, because they are 
getting the support in general education in the preventive instruction.  That makes it unnecessary.

	I want to emphasize that this is possible for minorities who end up in other categories, as 
well as children with learning disabilities.  The columnist William Raspberry and I had this 
conversation about a half a dozen years ago, actually longer.  We know so much to help kids early.  
It would make a great difference that when we have federal regulations, like the IQ-discrepancy 
formula that actually interferes with science, it really is, that we realize that is a signal that it is time 
to make some changes.

Mr. Osborne. If I might just comment.  Where I am trying to go with this is that we are a little less 
than 20 percent of full funding, or 40 percent.  And if some of the interventions that you mentioned 
could be implemented and we could reduce the number of children in IDEA by 30 or 40 percent, 
we would be a lot closer to 40 percent right now.  I think there is some suspicion, at least in my 
case, where I think that we may not be spending all of our money real wisely.  Certainly Head Start 
is important.

	I agree with you on the IQ issue.  I used to work with athletes.  If you had a culture-fair IQ 
test, many times, it made a hundred points difference on the SAT.  And people did not understand 
that.

	So my time is up, and thank you.

Chairman Castle. Thank you, Mr. Osborne.  Mr. Case.

Mr. Case. Thank you, Mr. Chair.  Preliminarily, in preparation for this hearing and the issue of 
reauthorizing IDEA, I wrote on March 6th to my governor, as well as a number of people in my 
state, asking for their comments on issues and areas where we could improve IDEA.  I have 
received back responses and would ask unanimous consent to include those communications in the 
record [Submitted for the record.  See Appendix I].

Chairman Castle. Without objection, the communications will be included in the record.

Mr. Case. Thank you very much, Mr. Chair.  I want to initially also associate myself fully with the 
remarks of my ranking member with respect to funding, full funding for IDEA.  It seems to me that 
this is an area of potential disagreement, and I would simply say that the failure to fund 40 percent, 
which is what the expectation was at the state level, is not a question that is beyond our control.  It 
is a matter of priorities, and it is a matter of commitment, so it is not dependent fully on the 
financial situation.  We do have the flexibility to fund fully.

	The picture that I get in my state, and I am sure it is no different in most other states, is of a 
system under which we have teachers and administrators totally committed to servicing IDEA 
children, struggling under an absence of funding under a variety of federal mandates, awash in 
paperwork, and devoting time and resources to everything other than the actual working with IDEA 
kids.

	I think we all want to provide full services to IDEA.  The previous questioner's remarks 
about over-identification indicate one area.

	What I want to focus on - and Ms. Brown, I think your testimony touched perfectly on it - is 
that it seems to me that one area that we all have common ground is in the area of trying to 
somehow get control of the adversarial nature of the process, and trying to get control of what 
seems to have become really a great consumer of time and resources in this system.

	I appreciated your testimony.  I think you are a very interesting witness, because you have 
been on both sides of this.  You are administering this, and yet you are a lawyer representing the 
other side.  So I think you come to this issue with great credibility, because you know the ins and 
outs of this system, and know what is broken.

	And Ms. Talarico, I just wanted to ask you, you focused on another area.  Although you are 
also an administrator, you are an observer.  Do you agree with Ms. Brown's testimony about areas 
that we could investigate to try to mitigate the adversarial nature of the process of identification, 
the process of IEPs, in a way that would be fair, and yet would not cost more money, deplete 
resources, and add paperwork that is simply bogging the system down?

Ms. Talarico. I absolutely support everything that Ms. Brown said.  I am glad that she got to cover 
an area that I could not.  Those five minutes went faster than any five minutes I have ever 
experienced in my life.

	But I do support everything that she said.  And it is interesting, because I shared with her 
our IEP from our local school district.  And, you know, she rolled her eyes and shook her head, and 
that is what I did when I saw it.

	We must do something about the form and create a model form that people across states and 
across school districts within a state can comprehend.  We also must make them more parent-
friendly, if it is indeed the guiding light for an educator who is going to be working with the child, 
but also something that a parent should be able to understand in terms of what kind of special help 
or special instruction we are giving their child.  It should be very clear.

	The only other comment that I wanted to make is that she is a very gifted person to be on 
the legal side and the school side of the coin as it relates to special education.  I, too, think that we 
have got to get ourselves to a system that allows dispute resolution rather than litigation.  That is 
not really helping anybody.  And the person who probably loses out while all the adults are running 
around trying to figure out what process is violated is really the child.

Mr. Case. Thank you.  My five minutes is going very fast too.  I appreciate that.  Ms. Brown, a 
couple of quick points: yes, no, maybes.  How about binding arbitration rather than - how about 
required mediation and then binding arbitration versus the other way?

Ms. Brown. I like required mediation.

Mr. Case. Okay.  People are opting out of mediation, right? They are just not going there.

Ms. Brown. Yes.

Mr. Case. How about the elimination of damages as a remedy in the instance of - that's being 
provided by courts, where if there is - sorry, go ahead.

Ms. Brown. We would welcome that.

Mr. Case. Okay.  How about balancing on attorney's fee size?  Pretty easy to get attorney's fees if 
you win right now.  The information I have is that states are essentially not contesting, because 
they just do not want to take the risk of the attorney's fees.

Ms. Brown. Exactly.  We have to litigate to do that.

Mr. Case. I wish I had five more minutes to keep on asking yes-and-no questions of you.  You said 
yes to everything so far.

Mr. Case. Thank you very much.

Chairman Castle. Maybe you can persuade some of your fellow members to yield to you, you 
know.  Good luck with that.  Thank you very much, Mr. Case.  Mrs. Biggert.

Mrs. Biggert. Thank you very much, Mr. Chairman. Actually, my question is very similar to Mr. 
Case's.  I have spent some time in the last few months going out to the various schools in my 
district asking them about reforms for IDEA.  And certainly, reducing the adversarial character of 
IDEA was a major one.

	I was glad to see that the things that you have mentioned, Ms. Brown, in your testimony 
were very similar to ideas that they had for streamlining the process.  And just the word mentioned 
was the one-year statute of limitations for claims raised before a due process hearing officer, and 
also, precluding attorney fees for prevailing parties for purely procedural or technical violations 
that could be addressed with a complaint with the SEC or the Office for Civil Rights.

	We had a case in one school district where it was $600,000, and it really was based on 
procedure.  To me, that seems like an outrageous cost that those school districts could not bear.  So 
you would agree with that.

Ms. Brown. Yes.

Mrs. Biggert. Good.  Then to provide school districts with notice in a one-month time period 
without attorney billings to resolve issues related to the appropriate public education.  I think so 
many times, the clock starts running, and so many of these attorneys just come in and start - 

Ms. Brown. That is our hardest issue.  If we have that time to cool off and what we are facing, 
many times we can resolve it before lawyers are involved.

Mrs. Biggert. Would you like to add anything, Ms. Talarico?

Ms. Talarico. No.  Ms. Brown covered it.  Thank you.

Mrs. Biggert. Okay.  Let me just come back to another question, I think, that we keep talking 
about this, but it is hard to answer.  So many of the children that seem to have been identified and 
placed in special education, they say, were placed because of purely reading issues.  I do not know 
if we need another category.  However, I think with the emphasis on No Child Left Behind, that the 
reading issue is caught early - and they say even third grade is too late.  We really have to identify 
them before that, and that is where the Head Start and Early Head Start come in.

	But how do we reach those kids that are going to be identified really early on?  And how 
are we going to be able to really concentrate on those kids that really need the special ed and put 
the reading issue into another category?  Do you have any ideas for what we could do to separate 
those two?  Or should we keep them the same?  Ms. Talarico.

Ms. Talarico. I would like to agree with - I am sorry.  I have forgotten - 

Mr. Lorton. Larry.

Ms. Talarico. Larry.  We are utilizing some of the same strategies in Canton that he is using in 
Maryland: all-day kindergarten and class size reduction.  We have an extensive pre-K program.  I 
am not certain that coming up with another category is really going to be the answer.

	I really think the teacher training institutes have got to look at what it is that they are 
teaching in terms of preparing people during pre-service before they come into the classroom.  And 
then in the meantime, we have to augment those that have already graduated from the university 
with skill sets to be able to help children who are experiencing reading difficulties.  We need an 
expansive repertoire of instructional strategies that they can use to intervene.  And if they 
themselves cannot do it, that is when we mentioned earlier about the preventive pre-referral 
intervention services.

	And so one of the things that we are doing in Canton is that we have literacy lead specialists 
in each of the elementary schools that help teachers figure out what they can do with children who 
are struggling at reading in the kindergarten, first grade, and second grade.  They are only now 
working with kindergarten, first grade, and second grade teachers.  The need is across K-5, but the 
concentration has to be as early as we can identify and attempt to remediate.

Mrs. Biggert. One of the school districts has a program, that I thought might be helpful, that 
identifies kids earlier than when they get to school.  They provide a set of books for pediatricians.  
And these books are given to the mother when she comes in for the first six-week checkup.  And it 
has ``Good Night, Moon,'' and a few of those books.  It also has a book that gives you other books 
that would be something that could be used.

	What it does is provide a form that they fill out, and then that goes to the school district.  
When that child arrives in the school district, teachers can go back and make an evaluation if that 
really is helping.  We are always trying to evaluate and stress accountability.  How do we get hold 
of that early, early in a child's education?  It seems to be working that they can then identify if they 
are ahead in their reading skills when they get to preschool or whether they are behind.

	Thank you.  Thank you, Mr. Chairman.

Chairman Castle. Thank you, Mrs. Biggert.  Ms. Majette.  And by the way, while we have a lot of 
members here, let me just say, because I really meant to say this before, in our hearings, the basic 
protocol that we follow is that we call on people when they arrive here, as opposed to seniority.  It 
gets confusing when people come and go, and then we have to subtract minutes.  No, we do not do 
that. But, we try to do it as fairly as we can.  I take advice from that side as to what the order is 
going to be.

	So if you have anyone to blame, please address it to whoever is giving us the list.  But Ms. 
Majette is next on the list.

Ms. Majette. Thank you, Mr. Chairman, and good morning, ladies and gentlemen.  Thank you all 
for being here.

	My question is addressed to Dr. Lorton.  I wanted to find out your perspective on this 
achievement discrepancy formula.  Do you think that that method of determining whether or not 
there's a learning disability, is that a satisfactory method, or is there something else that you 
particularly think would be more helpful or instructive?

Mr. Lorton. I am not a researcher, but I have an enormous respect for the kind of work that Dr. 
Carnine does. On a very practical level, it is a problem.  I think Dr. Carnine's recommendation to 
address it is something that would be a dramatic improvement.

Ms. Majette. And I guess do you think that there would be a cost involved in making that kind of 
transition? And I am using the word ``cost'' broadly, not just necessarily the financial cost involved.

Mr. Lorton. Well, I am not sure.  On one hand, in special education, there probably would be a 
cost reduction because fewer children would be identified as needing special education.  But on the 
other hand, the services, the interventions, and the support that the kids need will have to be 
delivered through some vehicle.  I am not sure what the balance would be.

Ms. Majette. Thank you.  And Mr. Chairman, if I may, if I have time remaining, I would like to 
yield the balance of my time to the gentlewoman from California, Ms. Woolsey, if she has 
additional questions.

Ms. Woolsey. Well, aren't you wonderful.  Of course I do.

Chairman Castle. What happened to Mr. Case and all those people who - 

Ms. Woolsey. I am sorry, Mr. Case.  I would like to know, Dr. Carnine, if you have an opinion or 
comment about the use of psychotropic drugs as an intervention.  Ritalin, et cetera?  Are we over-
using it?  I mean, I have my opinion, believe me, but I would like to hear yours.

Mr. Carnine. I am not really an expert in this area, so my comment will be brief and should not be 
taken with much weight.

Ms. Woolsey. All right.  Then I want each of you to comment, if you want to, on that.

Mr. Carnine. I was initially very skeptical, but it seems that there are some cases where there is 
evidence to indicate that it is beneficial.  But it does not seem to be a treatment that is like an 
antibiotic for an ear infection, which has universal consistent effects, and there needs to be more 
monitoring of what the effects are on the individual, rather than assumption that by doing it, it is 
solving a problem.

Ms. Woolsey. Dr. Lorton, do you have an opinion on this?

Mr. Lorton. I have been serving on a committee in Maryland studying special education, and I sat 
on the subcommittee that had to do with medications.  The committee was made up of experts - 
physicians, pediatricians.  For almost 18 months, they have been debating this very question 
without unanimity and resolution.  It is tough for the experts, much less those of us who are not 
experts.

Ms. Woolsey. Ms. Brown?  Thank you.

Ms. Brown. We have many cases where we have seen those drugs help students.  We have parents 
who refuse to give their children the prescriptions when they come to school. Our issue is we do 
not want teachers getting into the habit of recommending that a child take a certain type of drug.  It 
happens.  Because those parents then come back and want to file for us to pay for them.

Ms. Woolsey. Oh.

Ms. Talarico. I am not an expert in this area either, but I would prefer that we exhaust all avenues - 
diet, nutrition, allergies - before we prescribe medications.

Ms. Woolsey. Thank you very much.  And I have one minute.  Mr. Case, I will yield to you.

Mr. Case. Ms. Brown, Pat Hamamoto is the head of my school system, and I am really working 
off of her collated responses.  She mentions a USDOE policy recently adopted that basically 
prohibits educational agencies from initiating a hearing to override a hearing officer's determination 
of whether some parents refuse educational services.  Usually what that does is a combination of 
statute of limitations.  It comes back to bite you later on.  Basically, the comment is that we should 
do away with that prohibition.  What is your thought on that?

Ms. Brown. Most definitely.  That is one of the things that was changed in 1997.  I think that we 
forgot. When you asked us to start getting parent consent for reevaluations, that consent initiative 
really caused some problems. We do feel that there are some students that need services, and often, 
the parents do not understand everything that is involved.  That still would not negate their right to 
file a due process hearing.

	The school district does need the authority to go ahead and provide the services, because 
that is the key.  It is the child.  We want to make sure that they get the services they need.  So I 
concur.

Mr. Case. Thank you.

Chairman Castle. Thank you, Ms. Majette, Ms. Woolsey, and Mr. Case.  Mr. Platts.

Mr. Platts. Thank you, Mr. Chairman.  I would like to first thank all four of our testifiers for your 
testimony here today, but also, most importantly, your dedication to our children with special 
needs, and in all your different capacities.

	First, just a comment on Ms. Talarico.  I hear a lot about your comments, and especially 
your focus on the Part C early intervention.  I would be interested if you have any comments you 
would want to share on issues that are brought to you, not just having better access to the early 
intervention, but having a more seamless transition between Part C and the next stage.

Ms. Talarico. Thank you.  Part C is absolutely where this needs to begin.  The formative years are 
the most important years in a child's development.  I appreciated the comments earlier about the 
pediatricians giving parents books.  If that is how we can get to them earlier, then we need to 
employ that strategy across the nation.  It is something I will be exploring in my own community.

	What is happening is we are paying for this lost time that we do not get them from zero to 
five.  We are paying for them in special education much later on, and the cost is becoming 
prohibitive.  So anything that we can do to emphasize, expand, or enrich, Part C is an absolute 
must. Then our preschools, Head Starts, and private preschools, must work with the local school 
districts, if that is where the children are going to come.

	To make those transitions as smooth as possible, there needs to be articulation about any 
heads-up that must be given to the receiving educators in the K-5 system and K-12 system, to 
respond to the needs of that child early.

Mr. Platts. The concern I have is when that transition occurs, that with the way the law is written, 
it does not allow a very seamless transition.  It is kind of like starting over, because you are in the 
new system.

Ms. Talarico. I want the records transferred.  I want any information that we have on a child from 
zero to 4-1/2 or five to be given to the local school district so we are not starting over at square one.

Mr. Platts. I share the - whether it be an early intervention or for all children, early intervention 
and early education opportunities.

	I took the studies on brain development and zero-to-three very seriously.  When my son was 
born, who is about to turn seven, he traveled with me a lot when I was in the State House his first 
eight months.  I would be sitting in my office at age two or three months reading him books and, 
someone said, ``You're reading him books?  He cannot understand.''  I said, ``well, he cannot 
understand, but those neurons are developing.''  So the more we can do.

	So much of what we are trying to do is fix or address problems in special education and 
funding and everything down the road.  But, I hope that through our committee's work and the full 
committee that we can focus on the beginning stages.  Because we know, as you said, and the 
documentation shows so well that if we do it right up front, we are going to have less challenges 
down the road.  I hope we do that.  I appreciate your efforts.

	And quickly, Dr. Lorton, your comments and experiences with your school system 
demonstrate that you certainly are doing a remarkable job, given the resources you have.  If I 
understood your comments, the grant money you receive is more than 70 percent greater than the 
actual funding?  Can you explain that?  It sounds like the 17 million in grants are really keeping 
you afloat.

Mr. Lorton. Well, that 17 million includes some of those so-called entitlements, including IDEA.  
But we hustle. I mean, you can tell from our local appropriation that you are absolutely right.  
Without it, I do not know what we would be doing.

Mr. Platts. Question.  I am a strong supporter of the 40 percent funding.  We gave you the 
mandates.  We need to give you the funding.  As we work forward and we have increases, the 
Congress in the past several sessions has started to get us out of the single digits, now in the teens, 
and as Representative Osborne said, going into the 20's, hopefully, here in the near future, is there 
any concern at the local level of the states not appropriately passing that money on to the local 
districts?  Are you seeing that at all in Maryland, or is it really getting out to the local districts 
appropriately?

Mr. Platts. I did not mean to put you in a difficult spot.  But, what I am asking is whether we need 
to have any language specifying that as we give more federal money to the states, they do not just 
lessen the states' support, which would prevent the locals from getting an increase?

Mr. Lorton. I think I would answer that very simply by seconding Ms. Brown's earlier comments.  
That is an area, perhaps, of regulation that would reduce the interpretation that would be very 
helpful.

Mr. Platts. Okay.  Thank you all for your testimony and thank you, Mr. Chairman.

Chairman Castle. Thank you, Mr. Platts.  Mr. Davis.

Mr. Davis. Thank you very much, Mr. Chairman.  Dr. Carnine, my mother used to always tell us 
that an ounce of prevention is worth much more than a pound of cure.  And so I agree with you in 
terms of early diagnosis and early intervention.

	Since we kind of know this - I mean, we are learning it - what can we do to convince more 
school districts' policymakers that this is really what we need to do, and we need to do it across the 
board?

Mr. Carnine. Well, there are several things.  One, as I mentioned earlier, is to get rid of the IQ-
discrepancy formula, which actually is interpreted as meaning you cannot do that.

	Secondly, I think that it is important that the research from NICHD and the Office of 
Special Education Programs be supported in terms of translating to teachers and practitioners.  
There have been several comments about pre-service development and in-service professional.

	I want to add a comment, and that is there is a need for accountability here.  Colleges of 
education and professional development efforts in districts need be held accountable for adult 
learning for the use of those funds. Because too often, colleges of education do not have incentives 
to keep up with the research.  Let me put it that way.

	I think the funding flexibility that has been discussed by others on the panel in terms of 
putting money into pre-referral and early intervention and identification is important.  We now 
have instruments that can even be used to alert teachers and parents with four-year-olds that it is 
worth looking further into special needs for that child and special help.

	I think you are right.  We do know a lot, and we need to have the flexibility for schools to 
do it.  They need the training and the accountability.  We need to remove regulations that interfere 
with doing that.

Mr. Davis. Thank you.  Ms. Talarico, you mentioned the shortage of special education teachers.  Is 
the shortage so severe that it requires some kind of special action or special scholarships or special 
recruitment efforts or special orientation to cause individuals to go into this area of work?

Ms. Talarico. We are engaging in activities right now that would qualify as special recruitment 
activities.  In Canton, we are diversifying the work force, and we have a grant from the states.  We 
are actually paying for 21 folks to go back, in addition to their Bachelor's, and get a teaching 
certificate in special education math and science. And I think that is going on pretty much 
throughout the country, but the demand is greater than the supply that we have right now.

Mr. Davis. Very good.  Thank you.  Ms. Brown, you mentioned that parents should be limited to 
one reevaluation request in the three-year period.  Is this thought driven simply by cost, or is there 
some other consideration?

Ms. Brown. Oh, by no means, it is not by cost. With the progress reporting, we already do many 
reevaluations MINI.  Every time a teacher looks at the child, they are looking at the whole child to 
provide information.

	What I was talking about is that one parental request that we do not want to deny a parent at 
any time is a chance to tell us that they feel we need to look at their child and do some other 
testing.

	But clearly, doing it once every three years when there is no need, when nothing has 
changed, is really something that does drive the cost up in special ed.

Mr. Davis. So if there is a special request, then that would be honored.

Ms. Brown. Yes, based on category.

Mr. Davis. Thank you.  Finally, Dr. Lorton, I must confess that I am intrigued by what you have 
been able to do with disabled children or children with disabilities in your district.  Now, do you 
have other programs that are just as effective, or is this just something that you are able to do with 
children with disabilities?

Mr. Lorton. Yes.  The short answer to your question is yes.  But, let me hasten to add that we 
suffer when kids move into middle school.  We suffer the same malady that most school systems 
suffer, and that is that the assessment gains that appear in elementary school tend to fall off.  For 
example, our eighth graders on the same assessment exams do not perform as well as a group as 
they do in grades three and five.  And that is true of both our own internal Maryland criterion bar-
setting assessments as it is for standardized nationally standardized tests.

	But again, we put every dime that we can put into early childhood and the prevention 
modes, interventions, and support.

Mr. Davis. Thank you very much.  I will just say that as a former teacher and one who has spent a 
lifetime of looking at inner city schools and poverty-stricken areas, you do an outstanding job.

Chairman Castle. Thank you, Mr. Davis.  Mr. Wilson.

Mr. Wilson. Thank you, Mr. Chairman.  And thank all of you for being here this morning.

	Ms. Brown, my wife is a schoolteacher, and I hear from her.  That is very important.  I hear 
from other teachers concerned about the paperwork burden.  Out of your suggestions, what do you 
think can be done to reduce the burden?

Ms. Brown. The clearest suggestion that would start would be the model state IEP form.  Right 
now, every time a child comes into a school district or is newly identified, we start the process.  
The reason that most teachers leave this field is due to the paperwork.  If they compare themselves 
to their regular education counterparts, they do not have this much to do.

	The second reason is the adversarial nature of the work that we do.  But a model IEP form 
would really help so we can tailor it to the compliance requirements of the IDEA and of the state.  
Then everyone would know the same thing including school administrators, parents, and everybody 
working with the child.

Mr. Wilson. Amazingly enough, you jumped to the second question that I had regarding the IEP.  I 
have been a consumer.  Two of our sons went through the IEP process.  One just graduated from 
law school and the other is a junior in college.  So it is successful, but the paperwork is 
extraordinary.  Can you give us a little bit more about the model IEP program?

Ms. Brown. Well, as a matter of fact, Florida did have a model form, and our district adopted that, 
but all districts in our state did not.  We are on the county system. There are 67 counties in the State 
of Florida.  If that model form had been adopted by all districts, most of the mobility of students 
would be from county to county.  So a parent who moved from Miami to Orlando would simply 
have the same document.  We could look at that, and then start providing the services.

Mr. Wilson. That is terrific.

Ms. Brown. Yes.

Mr. Wilson. Dr. Carnine, if we know that there is an IQ discrepancy and that it is flawed, meaning 
for the needs of special education services, and there are new approaches which have not been fully 
tested, how can we form a transition?

Dr. Carnine. Well, I think one of the issues will be the timing.  I do not think it is reasonable to 
expect all districts to be able to move to a new model when the law is signed, so there has to be a 
consideration about what the phase-in is.  There needs to be support in terms of clarity about the 
use of funds from IDEA, and also encouragement to bring to bear the Reading First funds and the 
Title I funds.

	I think as several of the members have pointed out, much of it is a reading problem.  There 
needs to be a focus on this, an intensity, and a coordination.

	The OCEP training efforts to provide training to our urban districts and large schools, 
states, need to go forward, so that people have the best research and training models.  They need 
good information about how to move forward on this.

	I think there are several things that can be done to make the transition possible.  And it is 
also important to note that some states have adopted this state-wide.  I believe just recently that the 
State of Ohio released new documentation along these lines.  I believe Texas is going to start next 
month.

Mr. Wilson. Excellent.  Ms. Talarico, I want to make you aware - I am sure you are concerned 
about the shortage of special ed teachers - that I have introduced a bill, and it is part of the 
President's budget.  It is his plan to increase a loan forgiveness up to $17,500 for persons to teach in 
disadvantaged school districts.  I need for you to speak with some of the wonderful and good senior 
members of Congress to urge them to look at this bill.

	Also, Dr. Lorton, I want to point out that I have a new interest in education in Maryland in 
that my daughter-in-law is currently in labor at Bethesda.  And so we are getting word any time 
about a new student here in Maryland.

Mr. Wilson. Thank you for your service.

Mr. Lorton. She would love it in Caroline County.

Chairman Castle. Thank you, Mr. Wilson.

Mr. Grijalva.

Mr. Grijalva. Thank you, Mr. Chairman.  As a personal observation, I was elected to a school 
board in Tucson, Arizona, in 1975, the year that IDEA took effect in our school district.  It was 
welcomed by all of us with a great deal of promise and hope about reaching up and providing 
opportunity to children that had been left out of the educational process for too long and not well 
attended to in terms of their learning needs.

	Also, we were told repeatedly as school board members that magic 40 would be with us one 
of these days.  And now I am in Congress, and I hear from my former colleagues in school districts 
asking us about that magic 40.  So I, too, appreciate the ranking member's comments about 
mandatory funding, whether it is an immediate infusion to that commitment, or whether it is a 
process, a mandatory time line sequence to reach that number.  I think most school districts would 
welcome it.

	Let me follow up on that if I may, Dr. Lorton. According to the data that I was looking at, 
Latinos, Native Americans and African-Americans are identified as learning disabled in 
significantly higher numbers than majority students and white students.  My question is how would 
adequate funding - back to the issue of resources in special education - prevent the potential over-
identification of minorities, particularly as it relates to the subject that we were talking about today, 
and that is early intervention and early development programs?

Mr. Lorton. I think Dr. Carnine probably can answer this question better than I, because it does 
get at the root of the procedures, the instruments, and the diagnostic tools that we use to get at that, 
or try to get at that.

Mr. Grijalva. Assuming those tools are in place, assuming the discussion the doctor had was a 
model that was being applied, my question relates to the issue of funding, and how would your 
school district be able to be more effective in terms of dealing with that issue of over-identification.

Mr. Lorton. Well, if we had those dollars, we would turn them right around and put them into 
prevention programs, interventions and support programs, at the earliest ages that we possibly 
could do that.

Mr. Grijalva. Thank you.  A related question, Dr. Lorton, and that has to do with the - and I am 
sure you're familiar with it - the recent issue of clarification of Medicaid reimbursement for school 
districts.  And as you talked about the great things you have done with the resources in your school 
district - and it is outstanding - how would this clarification affect Caroline County school district?

Mr. Lorton. Well, I think it would be a plus.  It would be an absolute plus.  The short answer is 
that it would be another area of clarity that I think would be good for schools throughout America.

Mr. Grijalva. Thank you.  And one last, if I may, Mr. Chairman.  As we were talking - and this is 
directed to Ms. Brown - and I appreciate your testimony very much.  As we are talking about 
uniformity, guidelines, and regulations that have a more uniform content to them, because it will 
help children, a specific concern I have with language minority children and culturally-diverse 
children, children from different cultures, as it comes to assessment, evaluation, parent 
involvement, and staffing, quite frankly, that has always been an area in special education that has 
required local school districts to put a considerable amount of energy and time - in many instances, 
catch-up time.

	My question is as we look at uniformity and clarity in terms of the regulations that go to 
state, would you encourage this committee that in those two particular areas there be some 
development of that kind of uniformity?

Ms. Brown. We definitely need that.  Right now, we have a referred test and place model for 
special education. Any time a child is referred, it is a cry for help from the teacher.  If there were 
some specific information and guidelines, I think it would help all of us.

Mr. Grijalva. As it relates to language minority kids?

Ms. Brown. Yes.  And that is one of the reasons and the areas of over-identification.

Mr. Grijalva. Thank you.  Thank you, Mr. Chairman.

Chairman Castle. Thank you, Mr. Grijalva.  Mr. Van Hollen.

Mr. Van Hollen. Thank you, Mr. Chairman.  Thank you all for being here.  And a special thanks 
to Dr. Lorton, a fellow Marylander, for being here, and thank you for your work in Somerset 
County.  I am also pleased that, you know, last year the State of Maryland did enact a historic 
education reform package, including a huge increase in investment and funding, and I hope that 
that will help your efforts in Somerset County, as well as other areas around the state.

	I also want to welcome Congressman Wilson as a new recruit to the Montgomery County 
school system.  We are lucky to have him.  And I see we have the chairman of the Montgomery 
County Board of Education with us in the audience, and I want to welcome Mr. Richard Felton.

	I first want to just associate myself with the comments for full funding and full mandatory 
funding, sooner rather than later.  I think we need to develop a schedule of funding that will help us 
to reach our target in a relatively short period of time.  I think it is a matter of priorities, and I think 
that our priorities should be on the side of meeting our commitments in that area.

	I had a question, Dr. Carnine, because I think there is a general consensus that early 
education and early intervention is important.  It is important for kids who end up where we 
identify special eds, or kids who are not identified as special eds, to get an early start.  And I 
noticed some examples you gave from the states.

	But one area - and you mentioned four-year-olds - do you know of any state? There are 
some areas where this is done on a kind of ad hoc basis.  I know, for example, in some parts of 
Maryland, there are some counties that are trying to work with child care centers and other centers 
before they get into school to identify these kids earlier on.

	But is there any state or any model you know of right now in place that, on a systematic 
basis, sort of works to identify kids that may have that kind of disabilities, so we can provide for 
early intervention, before they get to kindergarten?

Mr. Carnine. There are some states through Part C, which was discussed earlier as being a very 
important program in IDEA, such as Connecticut.  I believe it is doing an excellent job in 
comprehensively trying to get to these children at an early age.  There are efforts of varying 
degrees in all the states, and that is the reason for Part C: incentive funding to go out and find these 
children and help them early.

	One of the areas that I think is important is that we need to look at measures in young 
children, not for accountability, but for program improvement.  The investment in prevention will 
pay off only if we get results.

Mr. Van Hollen. Right.

Mr. Carnine. The spending of the money is the first step, not the last step.  In the area of early 
childhood education, there has been some research about unobtrusive, non-threatening measures to 
young children that will help give us this.  I encourage the committee to allow the development of 
ways of finding out if children are actually benefiting so our prevention investment does pay off.

Mr. Van Hollen. Let me ask you this, and maybe the other panel - how important do you think all 
- day kindergarten is to having the time and resources available to provide both the reading that is 
important to all kids, and also for the identification process, at an early stage?

Mr. Carnine. I think the more severe the deficit, or the more the child is behind, the more 
instruction is needed to move that child up to grade level.  Therefore, when you are talking about 
at-risk kids, full-day kindergarten, where they use the time well, can be very advantageous.

Mr. Van Hollen. And Dr. Lorton, has your experience been that that it has been a very important 
factor?  I noticed you have - I commend your county for doing that on its own, you know, without 
state resources to support that all-day kindergarten.  Has that been an important factor?

Mr. Lorton. Congressman, we have no doubt that it is an important factor.  But the reality is that 
we cannot isolate that particular variable with the results that we get from our children on 
assessments.  We just have not been able, from a pure research point of view, put out a document, a 
spread sheet, or a chart of some sort and identify exactly what contribution all-day Kindergarten 
has made.  But the fact that we do as well as we do, and we are one of the only school systems with 
all-day Kindergarten, you have to conclude logically that it does have an impact.

Mr. Van Hollen. And finally, and as the chairman mentioned, although we have not come near to 
full funding, there has been an increase over the last number of years of special education.  You 
talk to some people in our communities, and they say they really have not seen the impact of those 
additional funds in terms of improving the situation in special education.  I would be interested in 
any of your comments on that.

	In other words, we have made an increase in the past, but we want to make an increase.  But 
have we really seen the improvements that we would expect to see as a result of that increase?

Ms. Brown. I think there have been some improvements.  But what people probably do not see is 
because of paperwork and the adversarial nature.  All they hear about are the negatives.  There have 
been a number of improvements.  But looking at it across the board, what the public hears about is 
their friends and other peoples' comments on the inordinate amount of time that they have to spend 
to get their jobs done.

Mr. Van Hollen. Thank you, Mr. Chairman.

Chairman Castle. Thank you, Mr. Van Hollen.  We apparently are going to have votes on the 
floor pretty soon, so we are going to bring this hearing to closure.

	I just have one observation.  Something Mr. Van Hollen said triggered something that I am 
concerned about, and that is this whole business of increased funding for IDEA.  It is clear that 
Congress is on a path to try to get this to 40 percent.  We are going to have to struggle about how to 
make it mandatory, how fast we can do it, and all those things, simply because of the press of 
dollars.  But, it seems evident that the political support is heavily there to get that done in this 
legislation.

	In IDEA in general, there is a maintenance of effort provision in terms of what particularly 
states and localities are doing.  A lot of people come in and say, ``We want more money from the 
federal government,'' thinking there is going to be more money in IDEA. Well, there is, if the state 
and local contributions remain the same.

	I have this sneaky suspicion that as we look at the districts around the country - what, 
14,500, did you say? Whatever it may be.  In districts around the country, there is some slippage in 
terms of the dollars that get down to these programs.  Different games can be played sometimes 
with how dollars get to it.

	So I hope that not just the witnesses here, but everybody in this room who are concerned 
about children with disabilities, would pay a lot of attention to that to make sure that that money is 
being channeled properly into that area.  It is important, and I think we all recognize the need for 
that.

	We have, then, no further business.  If Ms. Woolsey wishes to say anything, she certainly 
may, and then we will bring it to closure.

Ms. Woolsey. Thank you, Mr. Chairman.  I want to compliment you.  What a great panel.  I mean, 
you balanced each other.  We learned something different from each of you. Thank you so very, 
very much.

	Something I think we must remember when we're talking about prevention is prenatal care 
and services.  WIC programs, substance abuse prevention and treatment.  That all plays into this 
IDEA and the special needs kids.  So thank you for caring about the whole child and about children 
in general.  Thank you very much.

Chairman Castle. Let me also express my thanks to the panel.  I thought you were very incisive, 
individually and collectively, and blended well together in contributing to helping us develop this 
legislation.  We do appreciate your being here.  We know it is a sacrifice of time in your own 
schedules to be able to share your thoughts with us, and we do appreciate that.  So we thank you.

	And with that, we stand adjourned.

	[Whereupon, at 11:37 a.m., the subcommittee was adjourned.]













APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C. 














APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING 
MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, D.C. 













APPENDIX C - WRITTEN STATEMENT OF DIANNE TALARICO, 
SUPERINTENDENT, CANTON CITY SCHOOL DISTRICT, CANTON, OHIO.













APPENDIX D - WRITTEN STATEMENT OF HARRIET P. BROWN, 
DIRECTOR, ESE POLICY AND PROCEDURES, ORLANDO, FLORIDA.












APPENDIX E - WRITTEN STATEMENT OF DOUGLAS CARNINE, 
DIRECTOR AND PROFESSOR, NATIONAL CENTER TO IMPROVE THE 
TOOLS OF EDUCATORS, UNIVERSITY OF OREGON.












APPENDIX F - WRITTEN STATEMENT OF LARRY LORTON, 
SUPERINTENDENT, CAROLINE COUNTY SCHOOL DISTRICT, DENTON, 
MARYLAND.












APPENDIX G - WRITTEN SET OF PROPOSALS AND POSITION 
STATEMENT PRODUCED BY THE IDEA FUNDING COALITION 
SUBMITTED FOR THE RECORD BY MR. LARRY LORTON, 
SUPERINTENDENT, CAROLINE COUNTY SCHOOL DISTRICT, DENTON, 
MARYLAND.












APPENDIX H - WRITTEN STATEMENT BY ZERO TO THREE POLICY 
CENTER SUBMITTED FOR THE RECORD BY RANKING MEMBER LYNN 
C. WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C.












APPENDIX I - LETTERS OF CORRESPONDENCE SUBMITTED FOR THE 
RECORD BY REPRESENTATIVE ED CASE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, 
D.C.












APPENDIX J - WRITTEN STATEMENT FROM MR. MICHAEL RESNICK, 
ASOCIATE EXECUTIVE DIRECTOR, NATIONAL SCHOOL BOARDS 
ASSOCIATION, ALEXANDRIA, VA.



121

Table of Indexes



Chairman Castle, 1, 4, 5, 6, 9, 11, 14, 16, 17, 18, 20, 21, 23, 25, 26, 27, 29, 30, 32, 33, 35, 36
Mr. Carnine, 11, 20, 21, 26, 29, 31, 34
Mr. Case, 21, 23, 27
Mr. Davis, 29, 30
Mr. Grijalva, 32, 33
Mr. Keller, 5
Mr. Lorton, 14, 16, 19, 24, 25, 26, 28, 30, 32, 33, 35
Mr. Osborne, 20, 21
Mr. Platts, 27, 28, 29
Mr. Regula, 4
Mr. Van Hollen, 33, 34, 35
Mr. Wilson, 30, 31, 32
Mrs. Biggert, 23, 24, 25
Ms. Brown, 9, 20, 23, 24, 26, 27, 30, 31, 33, 35
Ms. Majette, 25, 26
Ms. Talarico, 7, 17, 18, 19, 20, 22, 24, 26, 27, 28, 29
Ms. Woolsey, 3, 18, 19, 20, 26, 36



 
cxviii

17


</pre></body></html>
